OIG Investigative Reports, Illegal Immigrant Charged in $47,770 Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
August 4, 2004
U.S. Department of Justice
Office of the United States Attorney
District of Arizona
for Information Contact Public Affairs
SANDY RAYNOR
Telephone:  (602) 514-7625
Cell:  (602) 525-2681
Illegal Immigrant Charged in $47,770 Student Loan Fraud
PHOENIX - The U.S. Attorney's Office for the District of Arizona announced that on August 4, 2004, a federal grand jury at Phoenix, returned a three count indictment against JESUS JOSE SERRANO-GIL, DOB 3-7-76, of Glendale, Arizona.
The indictment alleges that SERRANO-GIL falsely claimed to be a United States Citizen, and by so doing obtained Federal Student Aid. The defendant is currently in custody on these charges. He was arrested on a complaint on July 20, 2004.
According to the complaint, only U.S. citizens and legal permanent residents are eligible for Federal Student Aid, such as Stafford Loans and Pell Grants. The complaint alleges that SERRANQ-GIL presented Arizona State University with a birth certificate showing he was born in Maricopa County, Arizona. and was able to obtain approximately $47.770 in Federal Student Aid between 1997 and December of 2000, by falsely claiming to be a U.S. citizen. The complaint alleges the birth certificate was counterfeit, and SERRANO-GIL was a citizen of Mexico.
The federal indictment charges SERRANQ-GIL with violating Title 20 of the United States Code, Section 1097(a), Student Aid Fraud; Title 18 of the United States Code, Section 641, Theft of Government Property; Title 18 of the United States Code. Section 911, False Claim to Citizenship
A conviction for Student Loan Fraud carries a maximum penalty of 5 year(s), a $250,000 fine or both; Theft of Government property carries a maximum penalty of 10year(s), a $250,000 fine or both; False Claim to Citizenship a maximum penalty of 3 year(s}, a $250,000 fine or both
An indictment is simply the method by which a person is charged with criminal activity and raises no inference of guilt. An individual is presumed innocent until competent evidence is presented to a jury that establishes guilt beyond a reasonable doubt.
The investigation preceding the indictment was conducted by the U.S. Department of Education-Office of Inspector General and the U.S. Border Patrol.
The prosecution is being handled by Daniel R. Drake, Assistant U.S. Attorney. District of Arizona, Phoeni.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov